U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Quincey Frye v. United States of America,
S.Ct. No. 20-6569

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
13, 2020, and placed on the docket on December 8, 2020. The government’s response is due on
January 7, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6569
FRYE, QUINCEY
USA

MARTIN JOHN VOGELBAUM
ASSISTANT FEDERAL PUBLIC DEFENDER
300 PEARL STREET
SUITE 200
BUFFULO, NY 14202
716-551-3341
MARTIN_VOGELBAUM@FD.ORG

